   March, 30, 2005




Export Controls
Controls Over the Export Licensing
Process for Chemical and Biological
Items
(D-2005-042)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AECA                  Arms Export Control Act
CCL                   Commerce Control List
DTSA                  Defense Technology Security Administration
EAA                   Export Administration Act
EAR                   Export Administration Regulations
HHS                   Department of Health and Human Services
ITAR                  International Traffic in Arms Regulations
TPS                   Technology Protection System
USDA                  U.S. Department of Agriculture
USML                  U.S. Munitions List
USXPORTS              U.S. Export System
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                          March 30,2005
MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
               (TECHNOLOGY SECURITY POLICY AND
               COUNTERPROLIFERATION)
SUBJECT: Report on Controls Over the Export Licensing Process for Chemical
         and Biological Items (Report No. D-2005-042)

        We are providing this report for information and use. We conducted the audit in
response to Public Law 106-65, "National Defense Authorization Act for Fiscal Year
2000," Section 1402, "Annual Report on Transfers of Militarily Sensitive Technology to
Countries and Entities of Concern." We considered management comments on a draft of
this report in preparing the final report. The complete text of the comments is in the
Management Comments section of the report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Robert F. Prinzbach at (703) 604-8907 (DSN 664-8907) or to
Mr. Brett A. Mansfield at (703) 604-9646 (DSN 664-9646). See Appendix D for the
report distribution. The team members are listed inside the back cover.

                                      p&Lt         k: hJd
                                         Francis E. Reardon k-
                                       Deputy Inspector General
                                             for Auditing
               Department of Defense Office of Inspector General
Report Number D-2005-042                                                  March 30, 2005
   (Project No. D2004-D000LG-0232)

               Controls Over the Export Licensing Process for
                       Chemical and Biological Items

                                 Executive Summary

Who Should Read This Report and Why? Civil service employees and uniformed
officers responsible for controlling the release of chemical and biological items for
reasons of national security or U.S foreign policy should read this report. The report
discusses the effectiveness of the DoD review process for export license applications and
updates to Federal export regulations to prevent the proliferation of items that could pose
a threat to public health and safety.

Background. Public Law 106-65, “National Defense Authorization Act for FY 2000,”
section 1402, “Annual Report on Transfers of Militarily Sensitive Technology to
Countries and Entities of Concern,” October 5, 1999, requires that the Inspectors General
of the Departments of Commerce, Defense, Energy, and State, in consultation with the
Director of Central Intelligence and the Director of the Federal Bureau of Investigation,
conduct annual reviews of controls over the transfer of militarily sensitive technology to
countries and entities of concern. These annual reviews are summarized in an
interagency report to Congress.

The U.S. Government restricts the export of chemical and biological items to foreign
entities through the Department of Commerce’s Export Administration Regulations and
the Department of State’s International Traffic in Arms Regulations (the Federal export
regulations). Both the Department of Commerce and the Department of State consult
with other Federal agencies, including DoD, during the review of export license
applications. Within DoD, the Deputy Under Secretary of Defense (Technology Security
Policy and Counterproliferation) is responsible for export control and nonproliferation
policies and, as the Director of the Defense Technology Security Administration, is
responsible for coordinating license application reviews and providing the overall DoD
position on export license applications to Commerce and State, as appropriate.

The United States unilaterally controls biological items through the Bioterrorism Act,
which directs the Departments of Agriculture and Health and Human Services to identify
biological agents and toxins that could be used in acts of terrorism or other illegal acts
and to establish and enforce safeguards and security measures to restrict access to those
agents and toxins. These controls apply to the importation, use, and transfer of those
items within the United States. They do not control the export of such items.

Results. DoD had an effective process to review export license applications for chemical
and biological items. DoD management controls over the licensing process were
adequate in that DoD consistently reviewed applications in a timely manner and the
controls were in compliance with applicable requirements (see finding A).
DoD uses the Federal export regulations to determine which chemical and biological
items require a license for export (export-controlled items). However, the Commerce
Control List does not contain 20 biological agents and toxins identified on the U.S.
Department of Agriculture and the Department of Health and Human Services lists that
have the potential to pose a threat to animal, plant, and public health and safety. The
Department of Commerce is currently considering whether the items contained in the
U.S. Department of Agriculture and Department of Health and Human Services lists
should be export controlled. We recommend that the Deputy Under Secretary of Defense
(Technology Security Policy and Counterproliferation), together with the Department of
Commerce, undertake an assessment of items on the U.S. Department of Agriculture List
of Biological Agents and Toxins and the Department of Health and Human Services List
of Select Agents and Toxins as changes occur to those lists and determine whether any of
the listed agents and toxins should be controlled for export purposes by inclusion on the
Commerce Control List (see finding B).

Management Comments and Audit Response. The Deputy Under Secretary of
Defense (Technology Security Policy and Counterproliferation) concurred with the audit
findings and the recommendation. However, she stated that the section of the draft report
labeled “Munitions Export License Applications” was not entirely accurate. Based on
her comments, we made revisions to the “Munitions Export License Applications”
section of the report to better reflect the process used by Defense Technology Security
Administration to process and refer munitions export license applications. Management
comments are responsive, and no additional comments are required. See the Finding
sections of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                3

Findings
     A. DoD Review Process for Export License Applications                4
     B. Biological Items of Concern Not Currently Export Controlled       8

Appendixes
     A. Scope and Methodology                                            11
          Management Control Program Review                              12
     B. Prior Coverage                                                   14
     C. Biological Agents Not Included on the Commerce Control List      16
     D. Report Distribution                                              17

Management Comments
     Deputy Under Secretary of Defense (Technology Security Policy and
        Counterproliferation)                                            19
           This audit was performed to meet the requirement of Public Law 106-65,
           “National Defense Authorization Act for FY 2000,” section 1402, “Annual
           Report on Transfers of Militarily Sensitive Technology to Countries and Entities
           of Concern,” October 5, 1999, which states:

           “(a) ANNUAL REPORT. – Not later than March 30 of each year beginning in
           the year 2000 and ending in the year 2007, the President shall transmit to
           Congress a report on transfers to countries and entities of concern during the
           preceding calendar year of the most significant categories of United States
           technologies and technical information with potential military applications.

           “(b) CONTENTS OF REPORT. – The report required by subsection (a) shall
           include, at a minimum, the following:

                                *        *       *        *        *       *        *

                    “(3) An audit by the Inspectors General of the Departments of Defense,
                         State, Commerce, and Energy, in consultation with the Director of
                         Central Intelligence and the Director of the Federal Bureau of
                         Investigation, of the policies and procedures of the United States
                         Government with respect to the export of technologies and technical
                         information referred to in subsection (a) to countries and entities of
                         concern.”

           This report addresses the DoD portion of the required FY 2005 interagency
           review. An interagency report will also be issued.


Background
           The United States unilaterally controls the export of certain goods and
           technologies for national security, foreign policy, or nonproliferation reasons
           under the authority of several different laws. The primary legislative authority for
           controlling the export of goods and technologies that have civilian and military
           application (dual-use) is the Export Administration Act (EAA) of 1979, as
           amended (title 50, United States Code, section 2401).1 The Export
           Administration Regulations (EAR) state that the EAA gives authority to the
           Secretary of Commerce to issue rules and procedures for the export of dual-use
           items. The export of goods and technologies that have only military use
           (munitions items) is controlled under the authority of the Arms Export Control
           Act (AECA) (Public Law 90-629). The AECA authorizes the President to control
           the export of munitions items.


1
    The EAA expired in August 1994. However, the President, under the authority of the International
    Emergency Economic Powers Act (50 U.S.C. 1702), continued the provision of the EAA through
    Executive Orders 12924 and 13222, “Continuation of Export Control Regulations,” August 19, 1994, and
    August 17, 2001, respectively. Each year thereafter, and most recently on August 6, 2004, the President
    issued a notice, “Continuation of Emergency Regarding Export Control Regulations,” continuing the
    emergency declared by Executive Order 13222.



                                                      1
The United States restricts the export of chemical and biological items to foreign
entities through two Federal export regulations: the EAR, maintained by the
Department of Commerce (Commerce), and the International Traffic in Arms
Regulations (ITAR), maintained by the Department of State (State). For this
report, goods and technologies that are listed in Federal export regulations as
requiring a license for export are referred to as export-controlled items. Both
Commerce and State may consult with other Federal agencies (referral agencies),
including DoD, on export-controlled items.

Department of Commerce. The Commerce Bureau of Industry and Security
controls the export of dual-use items using the authority provided in the EAA.
The EAR implements the EAA requirements for executing the export licensing
process for dual-use items and contains the Commerce Control List (CCL) that
identifies dual-use items—goods and technologies, including software—that are
subject to the process as well as the conditions under which they may be
exported. The term “dual-use” is used to distinguish EAR-controlled items that
can be used both in military and other strategic uses and in commercial
applications. CCL Category 1, “Materials, Chemicals, Microorganisms, and
Toxins,” controls chemical and biological protective and detection equipment and
components not specifically designed for military use. Category 1 also controls
chemical agents, precursors for toxic chemical agents, human pathogens and
toxins, and Chemical Weapons Convention schedule 2 and 3 chemicals. Software
and technology specifically designed or modified to develop, produce, or use
Category 1 items are also export-controlled items. This report uses the term
“chemical and biological items” to refer to all items listed under Category 1.

Department of State. The State Office of Defense Trade Controls is responsible
for controlling the export of defense-related articles and services, approving or
denying export license applications, ensuring compliance with the AECA, and
registering persons and contractors. The ITAR implements the AECA and
contains the U.S. Munitions List (USML), which identifies export-controlled
defense-related articles, services, and related technical data as well as the
conditions under which they may be exported. USML Category 14,
“Toxicological Agents and Equipment and Radiological Equipment” controls
nerve agents, vesicant agents, incapacitating agents, riot control agents,
defoliants, medical countermeasures, and modeling or simulation test facilities.
In addition, Category 14 controls technical data and defensive services.
Components, parts, accessories, tools, and equipment specifically designed or
modified for the production of those munitions are also export-controlled items.
This report’s use of the term “chemical and biological items” also includes all
items listed under Category 14.

Department of Defense. Within DoD, the Deputy Under Secretary of Defense
(Technology Security Policy and Counterproliferation), under the direction,
authority, and control of the Under Secretary of Defense for Policy, is responsible
for the development and issuance of export control and nonproliferation policies.
The Deputy Under Secretary also serves as the Director of the Defense
Technology Security Administration (DTSA) and is responsible for coordinating
license application reviews and providing to Commerce and State, as appropriate,
the overall DoD position on export license applications. According to Draft
Directive 5105.72, “Defense Technology Security Administration (DTSA),”


                                     2
    DTSA is the receiving point for all export license applications and develops DoD
    positions on those applications. The Director, DTSA is also responsible for
    supporting the activities of other DoD Components and Federal agencies to
    restrain the flow of sensitive defense-related technology, goods, services, and
    munitions.

    Export Licenses. To be exported from the United States, all items listed on
    either the CCL or the USML must have an approved license or a specific license
    exception. U.S. entities are generally required to obtain an export license before
    providing foreign nationals access to software or technology that is subject to
    export licensing requirements. The need for an export license or license
    exception is determined by the type of item being exported, the country of final
    destination, and the end use of the item. Information about consignees, end users,
    and end uses must be included in the application. Because of recent proliferation
    concerns, the export of even the most basic items may require an export license if
    the end use is for nuclear, missile, biological, or chemical research, development,
    or production. Commerce and State may issue licenses with conditions that
    require the exporter to abide by certain restrictions. The referral agencies can
    also recommend that conditions be placed on an export license before it is issued.


Objectives
    Our overall audit objective was to evaluate whether the DoD export licensing
    review process helped deter the proliferation of chemical and biological
    commodities. We assessed the effectiveness of the DoD export licensing review
    process to ensure that lethal chemical and biological items were not exported to
    countries and entities of concern. Specifically, we determined whether DoD
    received, and how DoD assessed, export license applications for chemical and
    biological items. We also reviewed the management control program as it related
    to the overall objective. We deferred an announced objective of determining
    whether DoD facilities with chemical and biological items were in compliance
    with Federal export laws and regulations. See Appendix A for a discussion of the
    scope and methodology and our review of the management control program. See
    Appendix B for prior coverage related to the objectives.




                                         3
                    A. DoD Review Process for Export
                       License Applications
                    DoD had an effective process to review export license applications for
                    chemical and biological items. DoD consistently reviewed and referred
                    applications in a timely manner, provided positions on export license
                    applications, and was in compliance with applicable requirements.
                    Despite the lack of a fully automated license application referral process at
                    State or Commerce, DoD met statutory and internal review objectives.


DoD Role in the Export License Application Review Process
           DTSA is the DoD focal point and is responsible for coordinating and reviewing
           export license applications received from Commerce and State. DTSA is required
           to develop DoD positions on export license applications consistent with national
           security objectives and to process applications expeditiously, making full use of
           automation and other efficiencies. As required by Executive Order 12981, DTSA
           participates in the review of dual-use export license applications.

           Dual-Use Export License Applications. DTSA follows statutorily required
           timelines2 for review of dual-use export license applications, which allow up to
           30 days for review. DTSA receives dual-use license applications electronically
           through the Technology Protection System (TPS), but DTSA receives supporting
           data in hard copy via a courier service. A DTSA Tiger Team, composed of
           representatives from the Licensing, Technical, and Policy Divisions of DTSA,
           meets each morning to review a synopsis of dual-use license applications to
           determine which license applications should be referred to DoD Components.
           DTSA does not refer an application that the Tiger Team determines is standard or
           repetitive. For non-referred license applications, DTSA records its position
           through TPS. If the application is not standard or repetitive, DTSA refers the
           application electronically to the appropriate DoD Components via TPS and sends
           the supporting data in hard copy via a courier service. The DoD Components that
           DTSA might refer applications to are the Army, the Navy, and the Air Force (the
           Military Departments). DTSA gives the Military Departments 10 days to review
           the application. Once DTSA receives the Military Departments’ comments, a
           DTSA licensing officer creates a final DoD position and enters it into TPS.

           Dual-use license applications are also reviewed at an interagency “Shield”
           meeting. Chaired by State, Shield is an informal interagency working group with
           representation from Commerce, the Central Intelligence Agency, DoD, and the
           Department of Energy. Shield meetings provide a forum for discussing different
           opinions on license applications. Shield facilitates the review of dual-use license
           applications for chemical and biological items by meeting once a week and
           reviewing all dual-use license applications that are 16 to 22 days old. Shield
2
    Executive Order 12981 states that for dual-use export license applications, a Department or agency shall
    provide the Secretary of Commerce with a recommendation either to approve or deny the license
    application within 30 days of receipt of a referral and all required information.



                                                       4
           focuses on applications of concern and attempts to resolve issues. Shield
           escalates applications to the Operating Committee3 if issues cannot be resolved.
           The Operating Committee considers the agencies’ positions on unresolved dual-
           use export license applications and determines whether to permit the export.

           Munitions Export License Applications. DTSA has established informal,
           internal deadlines for the review of munitions export license applications. DTSA
           normally allows up to 31 days for DoD review and response to referred
           applications. DTSA either receives munitions license applications in hard copy
           via a courier or electronically through the U.S. Exports System (USXPORTS)
           from the State Department. Once DTSA receives a license application, they
           review the application and determine whether it is standard or repetitive and,
           therefore, does not need to be referred. If DTSA determines that a license
           application is standard or repetitive, DTSA provides the DoD position to State
           through USXPORTS. If the license application is not standard or repetitive,
           DTSA refers the application to the Military Departments. This step including the
           process of providing State the DoD position or referring the application to the
           Military Departments takes approximately 2 days. Hard copies of the
           applications and associated technical data are transferred for review via courier
           service. If the information is available in electronic form, it is also transferred for
           review via USXPORTS. DTSA allows Military Departments 25 days to review
           an application and, if that deadline is not met, DTSA can approve a 14-day
           extension. At the conclusion of the 25 days, it takes DTSA approximately 2 days
           to create and post the draft DoD position for review and comment by the Military
           Departments. Military Departments then have approximately 2 days to dispute
           the draft position. If there are no comments received from the reviewers, DTSA
           posts the final DoD position to State.

           Military Department Referrals. For both dual-use and munitions license
           applications, the Military Departments refer the license applications to program
           managers, technical experts, or other appropriate personnel for comment.

           The Deputy Assistant Secretary of the Army (Defense Exports and Cooperation)
           sent a memorandum to DTSA on July 23, 2003, that deferred the Army position
           on dual-use export license applications to the judgment and expertise of DTSA
           for the development of positions. The Deputy Assistant Secretary initiated that
           action after an internal review found that the Army’s interests were equally served
           regardless of whether the Army or DTSA reviewed the applications. However,
           the memorandum also states that dual-use license applications considered by
           DTSA to be of particular importance could still be referred and would be
           appropriately reviewed. Army personnel stated that they review approximately
           150 chemical or biological export license applications per year. Navy and Air
           Force personnel stated that they review approximately 20 or fewer chemical or
           biological license applications per year for each of their respective Departments.




3
    Executive Order 12981 states that the Secretary of Commerce appoints the Chair of the Operating
    Committee and he or she will consider the recommendations of the reviewing Departments and agencies
    and make the final decision concerning the proposed export.



                                                    5
DoD Review of Export License Applications
    We obtained a list of all chemical and biological export license applications
    received by Commerce and State during FY 2003. Those lists showed that
    Commerce had received 1,803 dual-use export license applications and that State
    had received 717 munitions export license applications for chemical or biological
    items. We reviewed random samples of 91 of the 1,803 dual-use applications and
    85 of the 717 munitions applications.

    Dual-Use Export License Applications. Commerce referred 84 of the
    91 dual-use export license applications in our sample to DTSA for comment.
    Commerce returned six of the remaining seven applications to the applicant
    without action because the applications were incomplete, and Commerce did not
    refer the seventh application to DoD because it was not considered to be a
    military item. DTSA met the statutory timeframe for the 84 applications it
    reviewed, and DTSA personnel stated that they had no outstanding concerns with
    Commerce’s final positions.

    In addition, we reviewed 18 dual-use export license applications from the
    Commerce list that had been escalated to the Operating Committee. DTSA
    personnel stated that DoD had no outstanding issues with the Operating
    Committee’s or Commerce’s final positions.

    Munitions Export License Applications. State referred 57 of the 85 munitions
    license applications in our sample to DTSA. State did not refer the other 28
    applications to DTSA because of the following reasons.

       •   Eighteen applications were for standard or repetitive items or State
           considered the technology level of the item to be widespread and not to
           pose a threat to the United States.

       •   Ten applications were incomplete and returned to the applicant without
           action.
    DTSA generally met internal deadlines for reviewing the 57 referred munitions
    export license applications. DTSA took more than 31 days to review 4 of the 57
    referred applications; however, we do not consider those instances to be excessive
    or to reveal an overall weakness with the review process for munitions license
    applications because they were reviewed in under 45 days, which is still within
    the allowable 14-day extension. DTSA personnel stated that, for the 57 referred
    applications, they had no outstanding concerns with State’s final positions.

    Automation of the Export Licensing Process. DoD was generally timely in its
    reviews of both dual-use and munitions export licenses. However, DTSA and
    Military Department personnel stated that the application review process would
    be more efficient if all license applications and supporting data were provided
    electronically. Specifically, the use of a courier service to deliver supporting data
    to DTSA and Military Departments adds at least 3 days of processing time for
    both dual-use and munitions export license applications. If Commerce and State
    referred supporting data electronically with the applications, DTSA and Military


                                          6
    Departments could reduce their review time by at least 3 days for some
    applications. However, DTSA consistently met statutory and internal deadlines
    despite the lack of a fully automated license application process; therefore, we are
    not making a recommendation to fully automate the process. Additionally, DTSA
    does not control how it receives supporting data; Commerce and State would need
    to take actions to ensure that all supporting data were sent to DTSA electronically
    by their Departments.


Conclusion
    DTSA and the Military Departments were effective in meeting their statutorily
    required and internal deadlines and contributed to the dual-use and munitions
    export license application review process. We attribute much of the success of
    the process to the spirit of cooperation exhibited by the personnel of DTSA and
    the Military Departments.


Management Comments on the Finding
    Management Comments. The Deputy Under Secretary of Defense (Technology
    Security Policy and Counterproliferation) concurred with the audit finding.
    However, she stated that the paragraph of the draft report labeled “Munitions
    Export License Applications” was not entirely accurate. She provided alternate
    language for this section of the report.

    Audit Response. As a result of management comments by the Deputy Under
    Secretary of Defense (Technology Security Policy and Counterproliferation), we
    made revisions to the “Munitions Export License Applications” paragraph of the
    report to better reflect the process used by DTSA to process and refer munitions
    export license applications.




                                         7
            B. Biological Items of Concern Not
               Currently Export Controlled
            DoD uses the Commerce Control List (CCL) to determine which
            biological items of concern are export controlled and require the filing of
            an export license application. However, the CCL does not contain 20
            biological agents and toxins identified on the U.S. Department of
            Agriculture (USDA) and the Department of Health and Human Services
            (HHS) lists that have the potential to pose a threat to animal, plant, and
            public health and safety. Commerce is currently considering whether the
            items contained in the USDA and HHS lists should be export controlled.
            It is our opinion that items listed on the USDA and HHS lists should be
            periodically evaluated for inclusion in the CCL.

Established Legislative Authority
     The United States controls chemical and biological items through legislation and
     by implementing regulations. The AECA and the EAA are the legislative
     authority for the EAR and the ITAR. The EAR and the ITAR are the Federal
     export regulations that identify the chemical and biological items of concern that
     require export control. Also, Public Law 107-188, “Public Health Security and
     Bioterrorism Preparedness and Response Act of 2002” (Bioterrorism Act), directs
     the USDA and HHS to establish and enforce safeguards and security measures to
     restrict access to biological agents and toxins that could be used in acts of
     terrorism or for any other criminal purpose. USDA is required to establish and
     maintain a list of and controls for biological agents and toxins that have the
     potential to pose a threat to animal or plant health or to animal or plant products.
     HHS is required to establish and maintain a list of and controls for biological
     agents and toxins that have the potential to pose a threat to public health and
     safety.

Biological Items of Concern Not Export Controlled
     As a result of the Bioterrorism Act, USDA and HHS published regulations on the
     possession, use, and transfer of chemical and biological items listed in those
     regulations. The regulations went into effect on February 11, 2003, and
     February 7, 2003, respectively.

     Both regulations establish requirements regarding the possession and use of the
     listed agents, their importation, and their transfer within the United States. The
     USDA regulation does not address the establishment of export controls. The
     HHS regulation states that it does not set export controls because regulating
     exports is the responsibility of Commerce.

     The USDA and HHS lists, in effect since February 2003, included 20 items that
     were not included on the CCL as of February 2005. Specifically, the CCL did not
     include:


                                           8
            •   15 biological agents on the USDA Biological Agent List;

            •   1 biological agent on both the USDA Biological Agent List and the
                HHS Select Agent List; and

            •   4 biological agents on the HHS Select Agent List.

     See Appendix C for a table showing the 20 biological agents and the particular
     lists they are on.


DoD Control of Biological Items
     DoD Directive 2040.2 requires the Under Secretary of Defense for Policy to
     prepare technology transfer control policy. In addition, the Directive requires
     DoD Components to manage transfers of technology, goods, services, and
     munitions consistent with U.S. foreign policy and national security objectives.

     DoD, like all U.S. entities, uses the Federal export regulations to determine which
     chemical and biological items require a license for export (export-controlled
     items).


Annual Report to Congress on Export Policies and Procedures
     To meet the intent of the “National Defense Authorization Act for FY 2000” the
     Offices of the Inspectors General of the Departments of Commerce, Defense,
     Energy, and State, in consultation with the Director of Central Intelligence and
     the Director of the Federal Bureau of Investigation, established guidelines for
     conducting annual reviews of controls over the transfer of militarily sensitive
     technology to countries and entities of concern. The participating Offices of
     Inspectors General signed a memorandum of understanding which stated that the
     agencies would develop an agreed upon approach to address each year’s review
     of controls over the transfer of militarily sensitive technology to countries and
     entities of concern. Each Office of Inspector General agreed to issue an agency
     specific report and work together to issue an interagency report to Congress
     outlining the combined findings and recommendations.

     In discussions with the Commerce Office of Inspector General’s representative to
     the interagency working group, subsequent to the draft report, we were notified
     that Commerce will address the issue of updating the CCL with items listed on
     the USDA and HHS lists. This issue will also be addressed in the Commerce
     specific and interagency reports. As a result, we made revisions to our draft
     finding to reflect the actions planned by Commerce to expand the CCL.




                                          9
Recommendation and Management Comments
    B. We recommend that the Deputy Under Secretary of Defense (Technology
    Security Policy and Counterproliferation), together with the Department of
    Commerce, undertake an assessment of items on the U.S. Department of
    Agriculture List of Biological Agents and Toxins and the Department of
    Health and Human Services List of Select Agents and Toxins as changes
    occur to those lists and determine whether any of the listed agents and toxins
    should be controlled for export purposes by inclusion on the Commerce
    Control List.

    Management Comments. The Deputy Under Secretary (Technology Security
    Policy and Counterproliferation) concurred with the draft finding and
    recommendation.




                                      10
Appendix A. Scope and Methodology
   We reviewed applicable Executive Orders and Federal laws and regulations,
   including the EAA, the AECA, and the associated EAR and ITAR. In addition,
   we evaluated the adequacy of DoD directives, policies, and regulations related to
   the disclosure and transfer of militarily sensitive and critical technologies to
   foreign entities from 1984 through 2004. We reviewed those documents to
   determine DoD responsibilities in the export license application review process.

   We compared export-controlled items listed in the EAR and ITAR with chemical
   and biological items listed in multilateral agreements, such as the Australia
   Group, Chemical Weapons Convention, Comprehensive Nuclear-Test-Ban
   Treaty, Missile Technology Control Regime, and the Wassenaar Agreement, to
   identify whether any of those items were not included in the EAR or ITAR.
   Additionally, we compared the items on the USDA Biological Agent List and the
   HHS Select Agent List with the items controlled by the EAR and the ITAR to
   determine whether any of those items were not included in the EAR or ITAR.

   During our audit, we interviewed personnel from the following offices: the
   Office of the Under Secretary of Defense for Intelligence; the Office of the
   Assistant to the Secretary of Defense (Chemical and Biological Defense); the
   Office of the Deputy Under Secretary of Defense (Technology Security Policy
   and Counterproliferation); the Plans & Policy Directorate (J-5) and the Force
   Structure, Resources, and Assessment Directorate (J-8), Joint Staff; the Joint
   Program Executive Office (Chemical and Biological Defense); the Office of the
   Deputy Assistant Secretary of the Army (Defense Exports and Cooperation); the
   Navy International Programs Office, Export License Division; the Deputy Under
   Secretary of the Air Force (Foreign Disclosure and Technology Transfer
   Division); the Defense Security Service; DTSA; and the Defense Threat
   Reduction Agency. At each location we discussed the export license application
   review process and the role and responsibilities for each office.

   We performed this audit from September 2004 through February 2005 in
   accordance with generally accepted government auditing standards. Our scope
   was limited due to time and resource constraints. Specifically, we did not address
   the announced objective of determining whether DoD facilities with chemical and
   biological items were in compliance with Federal export laws and regulations.

   We met with DTSA personnel who reviewed export license applications referred
   by Commerce and State, and we reviewed the automated systems used in the
   license review process. In addition, we met with the Shield chairperson to gain an
   understanding of the Shield process for reviewing dual-use export license
   applications. We also met with the Military Departments’ export license
   application review offices to determine their processes for reviewing applications
   referred to them by DTSA.

   To determine the effectiveness of the DoD export license application review
   process to ensure that lethal chemical and biological commodities were not
   exported to countries and entities of concern, we reviewed two random samples of
   applications—91 dual-use and 85 munitions export license applications. We


                                       11
    reviewed the samples to determine whether the export license applications were
    referred to DTSA and the Military Departments. To determine whether DoD
    received, and how DoD assessed, chemical and biological export license
    applications, we reconciled the export license applications in our samples with
    DTSA records and reviewed the rationale for each non-referral. We then
    compared actual processing times for referred applications with the statutory and
    internal deadlines for timeliness. We also compared the DoD final position with
    the final Commerce or State position, identified discrepancies, and inquired about
    those discrepancies.

    For our samples, we obtained lists from Commerce and State of all chemical or
    biological export license applications they received during FY 2003. Those lists
    showed that Commerce had received 1,803 dual-use export license applications
    and that State had received 717 munitions export license applications for
    chemical or biological items. We used a sampling plan designed by the DoD
    Office of Inspector General’s Quantitative Methods Division to randomly select
    export license applications from those lists for review.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the Commerce Export Control Automated Support System, USXPORTS, and
    TPS. We compared summarized or detailed data contained within those
    automated export licensing systems and reconciled differences. We did not find
    any errors that would preclude our use of the computer-processed data to meet the
    audit objectives or would change the conclusions in this report. Based on our
    comparison, we concluded that the system controls were adequate for our
    purposes in conducting this audit.

    Use of Technical Assistance. We received technical assistance from the DoD
    Office of Inspector General’s Quantitative Methods Division, which designed the
    sampling plan for our random samples taken from the lists of dual-use and
    munitions export license applications received by Commerce and State,
    respectively, during FY 2003. The sampling plan was designed with a 95 percent
    confidence level and a 10 percent precision level. We also received technical
    assistance from DTSA and Commerce during the course of this audit.
    Specifically, DTSA and Commerce personnel reviewed our comparison of the
    CCL and the USML with the multilateral agreement and unilateral regulations to
    determine whether our conclusions were accurate.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We evaluated the
    controls over the DoD export license review process for lethal chemical and
    biological items. Specifically, we reviewed the adequacy of the policies and


                                        12
procedures that the Office of the Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation) had for preventing the transfer of lethal
chemical and biological items to countries and entities of concern. We also
reviewed the adequacy of DTSA management controls over referred dual-use and
munitions export license applications. Because we did not identify a material
weakness, we did not assess management’s self-evaluation.

Adequacy of Management Controls. The Office of the Deputy Under Secretary
of Defense (Technology Security Policy and Counterproliferation) and DTSA
management controls were adequate in that we identified no material
management control weakness.




                                    13
Appendix B. Prior Coverage
    During the last 6 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have conducted multiple
    reviews discussing the adequacy of export controls. Unrestricted GAO reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports. The following
    previous reports are of particular relevance to the subject matter in this report.


GAO
    GAO Report No. GAO-01-528, “Export Controls: State and Commerce
    Department License Review Times are Similar,” June 14, 2001


DoD IG
    DoD IG Report No. D-2004-061, “Export Controls: Export-Controlled
    Technology at Contractor, University, and Federally Funded Research and
    Development Center Facilities,” March 25, 2004

    DoD IG Report No. D2003-070, “Export Controls: DoD Involvement in Export
    Enforcement Activities,” March 28, 2003

    DoD IG Report No. D-2003-021, “Security: Export Controls Over Biological
    Agents (U),” November 12, 2002

    DoD IG Report No. D-2002-039, “Automation of the DoD Export License
    Application Review Process,” January 15, 2002

    DoD IG Report No. D-2001-088, “DoD Involvement in the Review and Revision
    of the Commerce Control List and the U.S. Munitions List,” March 23, 2001

    DoD IG Report No. D-2000-110, “Export Licensing at DoD Research Facilities,”
    March 24, 2000

    DoD IG Report No. 99-186, “Review of the DoD Export Licensing Processes for
    Dual-Use Commodities and Munitions,” June 18, 1999




                                         14
Interagency Reviews
    Inspectors General of the Departments of Commerce, Defense, Energy, Homeland
    Security, and State and the Central Intelligence Agency Report No. D-2004-062,
    “Interagency Review of Foreign National Access to Export-Controlled
    Technology in the United States,” April 16, 2004

    Inspectors General of the Departments of Commerce, Defense, State, and the
    Treasury; the Central Intelligence Agency; and the United States Postal Service
    Report No. D-2003-069, “Interagency Review of Federal Export Enforcement
    Efforts,” April 18, 2003

    Inspectors General of the Departments of Commerce, Defense, Energy, State, and
    the Treasury Report No. D-2002-074, “Interagency Review of Federal Automated
    Export Licensing Systems,” March 29, 2002

    Inspectors General of the Departments of Commerce, Defense, Energy, and State
    Report No. D-2001-092, “Interagency Review of the Commerce Control List and
    the U.S. Munitions List,” March 23, 2001

    Inspectors General of the Departments of Commerce, Defense, Energy, and State
    Report No. D-2000-109, “Interagency Review of the Export Licensing Process
    for Foreign National Visitors,” March 24, 2000

    Inspectors General of the Departments of Commerce, Defense, Energy, State, and
    the Treasury and the Central Intelligence Agency Report No. 99-187,
    “Interagency Review of the Export Licensing Processes for Dual-Use
    Commodities and Munitions,” June 18, 1999




                                       15
Appendix C. Biological Agents Not Included on
            the Commerce Control List
                                                             USDA
                                                            Biological   HHS Select
             Chemical and Biological Agent                  Agent List   Agent List
  Akabane virus                                                 3
  Bovine spongiform encephalopathy agent                        3
  Camel pox virus                                               3
  Central European tick-borne encephalitis                                   3
  Cercopithecine herpesvirus 1 (Herpes B virus)                              3
  Coccidioides immitis                                          3            3
  Coccidioides posadasii                                                     3
  Cowdria ruminantium (Heartwater)                              3
  Far Eastern tick-borne encephalitis                                        3
  Liberobacter africanus                                        3
  Liberobacter asiaticus                                        3
  Malignant catarrhal fever virus (Exotic)                      3
  Menangle virus                                                3
  Mycoplasma capricolum/ M.F38/M. mycoides Capri                3
  Peronosclerospora philippinensis                              3
  Phakopsora pachyrhizi                                         3
  Plum Pox Potyvirus                                            3
  Sclerophthora rayssiae var zeae                               3
  Synchytrium endobioticum                                      3
  Xylella fastidiosa (citrusBacillus anthracis variegated       3
  chlorosis strain)




                                                  16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Deputy Under Secretary of Defense (Science and Technology)
Under Secretary of Defense for Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
   Programs)
Director, Program Analysis and Evaluation
Deputy Under Secretary of Defense (Technology Security Policy and
   Counterproliferation)

Joint Staff
Director, Joint Staff
   Director, Plans & Policy Directorate (J-5), Joint Staff
   Director, Force Structure, Resources, and Assessment Directorate (J-8), Joint Staff

Department of the Army
Inspector General, Department of the Army
Director, Joint Program Executive Office (Chemical and Biological Defense)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command




                                           17
Other Defense Organizations
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Security Service
Director, Defense Technology Security Administration

Non-Defense Federal Organizations
Office of Management and Budget
Director, National Security Agency
Inspector General, Department of Agriculture
Inspector General, Department of Commerce
Inspector General, Department of Energy
Inspector General, Department of Health and Human Services
Inspector General, Department of Homeland Security
Inspector General, Department of State
Inspector General, Central Intelligence Agency

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Select Committee on Intelligence
Senate Committee on Foreign Relations
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform
House Committee on International Relations
House Permanent Select Committee on Intelligence




                                         18
Deputy Under Secretary of Defense (Technology
Security Policy and Counterproliferation)
Comments
                                                Final Report
                                                 Reference




                                                Revised




                      19
20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Robert F. Prinzbach
Brett A. Mansfield
Gary A. Clark
Troy R. Zigler
Ronald L. Rembold
